 March 6, 2003




Financial Management

Financial Reporting of Deferred
Maintenance Information on Navy
Weapon Systems for FY 2002
(D-2003-058)




       Office of the Inspector General
                    of the
           Department of Defense

                                   Constitution of
                                  the United States

   A Regular Statement and Account of the Receipts and Expenditures of all public
   Money shall be published from time to time.
                                                              Article I, Section 9
       Additional Information and Copies

       To obtain additional copies of this report, visit the Web site of the Inspector
       General of the Department of Defense at www.dodig.osd.mil/audit/reports or
       contact the Secondary Reports Distribution Unit of the Audit Followup and
       Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
       fax (703) 604-8932.

       Suggestions for Future Audits

       To suggest ideas for or to request future audits, contact the Audit Followup and
       Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
       fax (703) 604-8932. Ideas and requests can also be mailed to:

                         OAIG-AUD (ATTN: AFTS Audit Suggestions)
                         Inspector General of the Department of Defense
                               400 Army Navy Drive (Room 801)
                                   Arlington, VA 22202-4704

       Defense Hotline

       To report fraud, waste, or abuse, contact the Defense Hotline by calling
       (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
       writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
       identity of each writer and caller is fully protected.




Acronyms

AIRLANT            Naval Air Force, U.S. Atlantic Fleet
ASN (FM&C)         Assistant Secretary of the Navy (Financial Management and
                      Comptroller)
ASPA/SDLM          Aircraft Service Period Adjustment/Standard Depot Level
                      Maintenance
FASAB              Federal Accounting Standards Advisory Board
FMR                Financial Management Regulation
IMC                Integrated Maintenance Concept
MSC                Military Sealift Command
NAVAIR             Naval Air Systems Command
PP&E               Property, Plant, and Equipment
RSI                Required Supplemental Information
SFFAS              Statement of Federal Financial Accounting Standards
SURFLANT           Surface Ships, U.S. Atlantic Fleet
          Office of the Inspector General of the Department of Defense
Report No. D-2003-058                                               March 6, 2003
 (Project No. D2001FJ-0156.000)

         Financial Reporting of Deferred Maintenance Information
                   on Navy Weapon Systems for FY 2002

                                  Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for compiling
and reporting deferred maintenance information and users of deferred maintenance
information should read this report. The report discusses how to comply with deferred
maintenance reporting requirements.

Background. The Federal Accounting Standards Advisory Board requires Federal
entities to provide supplemental information on deferred maintenance as part of the
entities’ financial statements. The Federal Accounting Standards Advisory Board defines
deferred maintenance as maintenance that was not performed when it should have been
or maintenance that was scheduled and then was delayed until a future period. The Navy
reported an estimated $1.3 billion of deferred maintenance at the beginning of FY 2002
on its aircraft, ships, missiles, combat vehicles, and other weapon systems national
defense property, plant, and equipment (PP&E) commodities. This audit focused on the
records used to compile the reported deferred depot maintenance estimate and did not
include a detailed review of contractor, intermediate, or organizational-level
maintenance.

Results. The Navy significantly increased the amounts it reported as deferred
maintenance on its national defense PP&E in recent years from $608 million in FY 1998
to $1.3 billion in FY 2001. However, the Navy’s estimate at the beginning of FY 2002
understated some deferred maintenance requirements by at least $129 million and
overstated other requirements by $17.7 million. Also, the Navy did not perform the
required reconciliation between its deferred maintenance information and its budget
documentation. Additionally, the Navy’s Military Sealift Command did not collect
information on the deferred maintenance it incurred on support ships. The Navy had
improved the deferred maintenance reporting process. However, the Navy needed to
improve its procedures for collecting information on deferred maintenance to be able to
provide a reliable estimate of the cost to complete maintenance that was needed but not
performed in FY 2002 (finding A). In addition, the Navy’s presentation of information
about its deferred maintenance on financial statements was inadequate. The Navy did not
fully and adequately disclose changes in aircraft maintenance support plans and the
method of measuring deferred maintenance for ships. Unless improvements are made to
present complete information, the reader’s ability to make informed management
decisions on the condition of Navy national defense PP&E will continue to be impaired
(finding B).
Management Comments and Audit Response. The Director, Office of Budget,
Assistant Secretary of the Navy (Financial Management and Comptroller) generally
concurred with the intent of the recommendations and the proposed corrective actions.
As a result of his comments, we deleted a recommendation to report deferred
maintenance on Ready Reserve Force Ships. However, we disagreed with the Director’s
belief that the Navy was properly using the federal accounting definition for reporting
deferred maintenance and we request that the Navy provide additional comments. We
also request that the Navy provide additional comments that clarify the action planned to
report changes in deferred maintenance that result from operational or financial
constraints, reconsider its response to report deferred maintenance on aircraft carriers,
indicate whether the Military Sealift Command has established the management controls
to measure and estimate the deferred maintenance, and include more narrative or
descriptive statistics when reporting on deferred maintenance amounts. We request that
the Navy provide the comments by May 6, 2003. See the Findings section of the report
for a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                           i


Background                                                 1


Objectives                                                 2


Findings
     A. Compilation of Deferred Maintenance Information     3
     B. Presentation of Deferred Maintenance Information   12

Appendixes
     A. Scope and Methodology                              16
          Management Control Program Review                17
          Prior Coverage                                   18
     B. Report Distribution                                19

Management Comments
     Office of the Assistant Secretary of the Navy
       (Financial Management and Comptroller)              21
Background
    This audit was performed in support of the Chief Financial Officers Act of 1990
    (Public Law 101-576), as amended by the Government Management Reform Act
    of 1994 (Public Law 103-356), and the Federal Financial Management
    Improvement Act of 1996 (Public Law 104-208). This report is the third in a
    series resulting from our audit of the financial reporting of deferred maintenance
    on weapons systems. The first report discussed Air Force reporting, and the
    second discussed Army reporting. This report discusses Navy efforts to compile
    and report deferred maintenance information.

    Federal Standards. Statement of Federal Financial Accounting Standard
    (SFFAS) No. 6, “Accounting for Property, Plant and Equipment,” June 1996, as
    amended by SFFAS No. 14, “Amendments to Deferred Maintenance Reporting,”
    April 1999, provides the reporting requirements for deferred maintenance on
    national defense property, plant, and equipment (PP&E). SFFAS No. 6 defines
    deferred maintenance as maintenance that was not performed when it should have
    been or maintenance that was scheduled and then was delayed until a future
    period. Maintenance is the act of keeping fixed assets in acceptable condition and
    includes all activities needed to preserve the asset so that it continues to provide
    acceptable services and achieves its expected life. However, maintenance
    excludes activities that would expand the capacity of the asset or otherwise
    upgrade it to serve needs different from, or significantly greater than, those
    originally intended.

    In June 1996, The Federal Accounting Standards Advisory Board (FASAB)
    required entities to disclose deferred maintenance in the financial statements as a
    line item on the Statement of Net Cost with a footnote reference instead of a
    dollar amount. FASAB concluded that deferred maintenance did not meet the
    definition of a liability because it could not be sufficiently measured. In
    April 1999, FASAB changed the financial statement reporting of deferred
    maintenance from the footnotes to the Required Supplemental Information (RSI)
    section to allow management maximum flexibility in reporting deferred
    maintenance. FASAB defines generally accepted accounting principles for the
    Federal Government. Within SFFAS No. 6, FASAB concluded that maintenance
    is often underfunded because the consequences of underfunding maintenance are
    often not immediately apparent. The consequences include increased safety
    hazards, higher operating costs in the future, and inefficient operations.
    Therefore, reporting deferred maintenance estimates in the financial statements is
    intended to provide reliable information on the condition of PP&E and the cost of
    correcting any deficiencies to DoD managers, the Congress, and other interested
    parties.

    DoD Policy. The Financial Management Regulation (FMR) implements
    SFFAS No. 6 and provides the requirements for the Military Departments to
    report deferred maintenance on national defense PP&E. The FMR requires the
    Military Departments to use the unfunded column of the Op-30, “Depot
    Maintenance Program Summary,” a budgetary exhibit that is submitted with the
    President’s Budget as the basis for reporting deferred depot-level maintenance.
                                         1
    DoD policy allows the Departments to supplement the Op-30 unfunded amounts
    with any material contractor, intermediate, or organizational non Op-30 deferred
    maintenance amounts.

    Navy FY 2001 Deferred Maintenance Amounts. For FY 2001, the Navy
    reported deferred maintenance estimates of $1.3 billion in the RSI portion of the
    Navy General Fund Financial Statement. The major classes of weapons that the
    Navy reported were aircraft, ships, missiles, combat vehicles, and other weapon
    systems. The other weapon systems class included ordinance, end item
    maintenance for support equipment, camera equipment, landing aids, calibration
    equipment, air traffic control equipment, target systems, expeditionary airfield
    equipment, special weapons, target maintenance, and repair of reparables.

Objectives
    Our overall objective was to determine whether the Military Departments
    consistently and accurately compiled deferred maintenance information on
    weapons systems for financial statement reporting. We determined whether the
    Navy procedures for compiling and presenting deferred maintenance information
    were adequate. We also assessed compliance with applicable laws and
    regulations. See Appendix A for a discussion of the audit scope and methodology.




                                         2
           A. Compilation of Deferred Maintenance
              Information
           The Navy significantly increased the amounts it reported as deferred
           maintenance on its national defense PP&E in recent years
           from $608 million in FY 1998 to $1.3 billion in FY 2001. However, the
           Navy’s estimate at the beginning of FY 2002 included deferred
           maintenance requirements that were understated by at least $129 million,
           and other requirements that were overstated by $17.7 million.
           Additionally, the Navy did not perform the required reconciliation
           between deferred maintenance information and budget documentation.
           Also, the Navy’s Military Sealift Command (MSC) did not collect
           information on the deferred maintenance it incurred on support ships.
           These conditions existed because the Navy did not adequately implement
           the DoD policy for collecting deferred maintenance information or comply
           with financial statement information requirements. Unless the procedures
           are improved, the Navy will not be able to provide a reliable estimate of
           maintenance deficiencies on national defense PP&E.

Navy Compilation Process for Deferred Maintenance
    Navy Reporting in Prior Years. The Navy had made improvements to the
    deferred maintenance reporting process in recent years. Specifically, since 1998,
    the Assistant Secretary of the Navy (Financial Management and Comptroller),
    hereafter referred to as ASN (FM&C), placed greater emphasis on the accuracy
    and consistency of Navy deferred maintenance reporting. The ASN (FM&C) also
    issued implementing guidance to the Navy claimants for deferred maintenance
    reporting.

    The ASN (FM&C) office compiled deferred maintenance information annually
    based on the submission of deferred maintenance data from the Navy major
    claimants. The major claimants that were reporting deferred maintenance
    included the Marine Corps, Naval Air Systems Command, Naval Sea Systems
    Command, U.S. Atlantic and U.S. Pacific Fleets, Naval Space and Warfare
    Command, and MSC. These claimants reported total deferred maintenance
    amounts of $608 million in FY 1998, $2.2 billion in FY 1999, $1.3 billion in
    FY 2000, and $1.3 billion in FY 2001. The significant rise in the amount of
    deferred maintenance reported between 1998 and 1999 related to the ships’ major
    asset class. The Navy understated the FY 1998 amount it reported because it did
    not include any amount for ships. In FY 1999, the Navy overstated the amount
    because it included intermediate and organizational-level deferred maintenance
    for the ships’ major asset class. The Navy’s 2000 and 2001 amounts included
    only depot-level deferred maintenance as required by DoD policy.




                                        3
    Navy Policy. The ASN (FM&C) deferred maintenance policy requires that
    deferred maintenance amounts reconcile to the Op-30 report for each major
    command. However, MSC was not required to prepare Op-30 reports because
    MSC was a Working Capital Fund that charged fees for services performed.
    Other Navy commands did prepare Op-30 reports because they received funding
    from the Navy Operations and Maintenance fund. Table 1 shows the deferred
    maintenance amounts submitted by each major claimant.

                 Table 1. Navy FY 2001 Deferred Maintenance Amounts
                           Submitted by Each Major Claimant
                                                                    Percent of
                                                     Amount        Total Amount
                  Reporting Activity               (In millions)     Reported
          Naval Air Systems Command1,2              $ 302.3            23.1
          U.S. Atlantic & Pacific Fleets1              903.8           69.2
          Naval Sea Systems Command                     73.4             5.6
          Marine Corps1                                 26.6             2.0
          Space and Warfare Command                      0.2              .1

                Total                              $1,306.3            100
          1
              Includes active and reserve
          2
              Includes Marine Corps aviation



Collection of Deferred Maintenance Information
    The Navy improved the deferred maintenance reporting process. However, the
    Navy procedures for collecting information on deferred maintenance needed
    improvement to consistently and accurately estimate amounts of necessary
    maintenance that were delayed until a future period. Specifically, the prior year
    estimate of Navy deferred maintenance did not include $129 million of deferred
    maintenance that should have been included and included $17.7 million of
    deferred maintenance that should not have been included. The Navy:

    •   excluded at least $50.5 million of deferred maintenance on aircraft that met
        FASAB reporting criteria,

    •   excluded $78.5 million of deferred maintenance on fleet ships that met
        FASAB reporting criteria and included $17.7 million of deferred maintenance
        that should not have been reported on fleet ships, and

    •   did not reconcile the deferred maintenance estimates to the Op-30 President’s
        budget documents.


                                               4
    In addition, MSC did not collect deferred maintenance information on support
    ships. MSC did not have a process in place to measure and quantify requirements
    on MSC ships. MSC did not prepare Op-30 reports because it is classified as a
    Navy Working Capital Fund. Working Capital Funds recover operating costs
    through customer charges and thus are exempt from the Op-30 reporting
    requirements.

Deferred Maintenance Reporting for Aircraft
    The Navy procedures for collecting deferred maintenance information on aircraft
    did not consistently and accurately estimate deferred maintenance. The Navy did
    not include $50.5 million of deferred maintenance on aircraft that should have
    been reported. The $50.5 million understatement consisted of $16.5 million of
    depot maintenance on H-1 Cobra/Huey and H-53 Sea Dragon/Super Stallion
    helicopter airframes and $34 million of depot maintenance on 17 F/A-18 Hornet
    fighter and attack aircraft. The deferred maintenance on the helicopters occurred
    because the planned maintenance was deleted from the Op-30s when the
    maintenance could not be performed. The F/A-18 depot maintenance
    requirements were not performed because of limited funding.

    Understated Deferred Maintenance on Helicopters. The Naval Air Systems
    Command (NAVAIR) understated deferred maintenance on H-1 Cobra/Huey and
    H-53 Sea Dragon/Super Stallion helicopter airframes by at least $16.5 million
    when NAVAIR used revised Op-30 budget exhibits for deferred maintenance
    reporting. The exhibits excluded the helicopter maintenance that was originally
    planned. The planned maintenance on these helicopters was not performed
    because of delays in implementing a phased maintenance plan. The new plan, the
    Integrated Management Concept (IMC), involved performing maintenance tasks
    at certain fixed intervals. The Navy was transitioning from a maintenance plan,
    called the Aircraft Service Period Adjustment/Standard Depot Level Maintenance
    (ASPA/SDLM) aircraft maintenance support plan, to the IMC support plan. As a
    result of the delays, NAVAIR did not include the originally planned helicopter
    maintenance requirements in the revised Op-30 form that was submitted with the
    following year’s President’s Budget. The funds initially allocated to the
    helicopter IMC program were used to satisfy other aircraft depot maintenance
    requirements. FASAB guidance requires the reporting of maintenance that was
    planned but not performed.

    NAVAIR had not established a process for reporting deleted requirements in the
    deferred maintenance submission. To improve its compliance with FASAB and
    DoD policy, the deferred maintenance compilation process needed improvement
    to include all material deferred maintenance requirements in its year-end estimate,
    including those requirements that are deleted from the Op-30 during the fiscal
    year.

    Understated Maintenance on F/A-18 Hornet Fighter and Attack Aircraft.
    The Navy did not report at least $34 million of underreported deferred
    maintenance on 17 F/A-18 aircraft needing depot repair at the Naval Aviation
    Depot North Island in San Diego, California, at the end of FY 2001. The F/A-18
    aircraft arrived at the depot between 1995 and 2001 because of aircraft mishaps.
                                         5
     The F/A-18 repair costs were not programmed in the NAVAIR Op-30 budget
     exhibits because of limited funding. As a result, the FY 2001 NAVAIR deferred
     maintenance submission (based on the Op-30s) did not include the $34 million for
     the F/A-18 aircraft requirements. During FY 2002, NAVAIR made progress to
     reduce the number of F/A-18 aircraft awaiting depot repair. Specifically,
     NAVAIR obtained supplemental funding from the DoD Emergency Response
     Fund to repair seven of the F/A-18 aircraft. NAVAIR needed to establish
     procedures to collect and report deferred maintenance on the F/A-18 aircraft in
     accordance with FASAB requirements.

Deferred Maintenance Reporting for Fleet Ships
     The Navy procedures for collecting deferred maintenance information for fleet
     ships needed improvement to consistently and accurately include deferred
     maintenance. The Navy understated $78.5 million and overstated $17.7 million
     of deferred maintenance related to U.S. Atlantic Fleet aircraft carriers.

     Table 2 details the breakdown of the deferred maintenance by aircraft carrier.

                        Table 2. Comparison of Deferred Maintenance
                           Amounts Reported and Actual Amounts
                                       (in millions)
                                  Amount         Understated   Overstated    Absolute
          Aircraft Carrier        Reported        Amount        Amount       Difference
     USS John F. Kennedy          $   0             $26.3       $    0           $26.3
     USS Enterprise                   0              26.2            0            26.2
     USS Dwight D. Eisenhower         0                 0            0               0
     USS Theodore Roosevelt           0               9.8            0             9.8
     USS George Washington            0              16.2            0            16.2
     USS Harry S. Truman           17.7                 0         17.7            17.7
       Total                      $17.7             $78.5       $17.7            $96.2



     Understated Deferred Maintenance Information. The Naval Air Force, U.S.
     Atlantic Fleet (AIRLANT), reported deferred maintenance for only one of the
     six U.S. Atlantic Fleet aircraft carriers even though additional deferred
     maintenance existed. As a result, AIRLANT understated deferred maintenance
     for four of the six U.S. Atlantic Fleet aircraft carriers by $78.5 million. The
     deferred maintenance was understated because AIRLANT only reported deferred
     maintenance for the requirements that should have been executed in the current
     year.AIRLANT methodology excluded the reporting of maintenance deferred
     from all prior periods. For example, at least $16.2 million in maintenance
     requirements was deferred from the last depot availability for the USS George
     Washington. AIRLANT did not report any amount of deferred maintenance for
     this ship. Although valid deferred maintenance existed for the USS George
     Washington, no amount was to be reported as deferred maintenance for FY 2002
     based on AIRLANT methodology. AIRLANT should be reporting the deferred
                                             6
    maintenance not performed when it should have been or maintenance that was
    scheduled and then delayed until a future period.

    Overstated Deferred Maintenance Information. AIRLANT overstated the
    amount of deferred maintenance for one of the six U.S. Atlantic Fleet aircraft
    carriers by $17.7 million. This amount was reported as deferred maintenance for
    the USS Harry S. Truman and was based on a preliminary deferred maintenance
    estimate for maintenance that was scheduled to start September 2001. However,
    because the time period had not passed for the maintenance to be accomplished,
    AIRLANT should not have reported any deferred maintenance for that carrier in
    FY 2001. The deferred maintenance estimated was overstated because
    AIRLANT reported deferred maintenance requirements that were not scheduled
    to be funded in FY 2001. AIRLANT was required to recognize maintenance not
    performed when it should have been or maintenance that was scheduled and then
    delayed until a future period. AIRLANT should report an amount of deferred
    maintenance for FY 2002 based on the deferred maintenance from the ships’ most
    recent depot-level maintenance availability.

Deferred Maintenance Reconciliation to Budget Documents
    The deferred maintenance estimates reported on the financial statements did not
    reconcile to the Op-30 budget documents as required by ASN (FM&C) and DoD
    policy. Navy and DoD policy state that although the deferred maintenance
    amounts reported for the financial statements and the Op-30 exhibit may not
    match exactly, there should be a reasonable correlation and the difference (if any)
    should be reconcilable. For example, the Atlantic Fleet Reserve submission for
    deferred maintenance for ships was $17 million more than the Op-30 President’s
    Budget exhibit unfunded amount. In addition, the support for the Marine Corps
    major command submission for deferred maintenance on combat vehicles was
    $9.1 million less than the Op-30 President’s Budget exhibit unfunded amount.
    This occurred because no process had been established to reconcile the Op-30 to
    the amounts submitted by the claimants for financial statement purposes.
    Therefore, the Navy needs to require the major claimants to perform
    reconciliation between the amounts that support the financial statements and the
    Op-30 exhibit amounts.

Deferred Maintenance on Military Sealift Command Ships
    MSC provides sea transportation worldwide for DoD in peace-time and war.
    MSC uses a mixture of Government-owned and commercial ships. MSC ships
    support four separate and distinct programs: Naval Fleet Auxiliary Force, Special
    Mission, Prepositioning, and Sealift. MSC currently operates 121 active non-
    combatant, civilian-crewed ships around the world. In FY 2001, MSC did not
    collect deferred maintenance information on ships. As a result, MSC reported no
    deferred maintenance on those ships. Although deferred maintenance existed for
    MSC ships, data were not available to estimate the total cost. This occurred



                                         7
    because MSC did not establish a methodology to measure, estimate, and report
    deferred maintenance amounts. MSC needs to develop a process to determine
    deferred maintenance for MSC ships in accordance with FASAB requirements.

    Deferred maintenance existed on ships operated by MSC. However, data were
    not available to estimate the total cost of the deferred maintenance. For example,
    we obtained information showing 28 MSC ships with 109 outstanding U.S. Coast
    Guard safety violations in FY 2001. MSC could not provide documentation
    demonstrating that the deficiencies were corrected in FY 2001.

Intent of Deferred Maintenance
    The Navy significantly improved its reporting of deferred maintenance since
    1998. However, further refinements are needed. Until the Navy procedures for
    estimating deferred maintenance are improved, the Navy will not be able to
    provide a reliable estimate of the total maintenance delays and deficiencies on
    Navy national defense PP&E. Improvements are needed to prevent continuing
    problems for FY 2002 and beyond.

    In SFFAS No. 6, FASAB concluded that by reporting deferred maintenance, the
    entity would provide reliable information on the condition of the PP&E and
    estimates of the cost to correct deficiencies. In addition, FASAB required Federal
    agencies to report deferred maintenance in part because of concerns over the
    deteriorating condition of Government-owned PP&E.

    The Navy deferred maintenance collection procedures resulted in inconsistent and
    inaccurate deferred maintenance amounts. As a result, the current Navy process
    for capturing deferred maintenance information does not meet the requirements of
    FASAB.

Recommendations, Management Comments, and Audit
  Response
    In the draft report, we requested comments from the Assistant Secretary of the
    Navy (Financial Management and Comptroller); Commander, Naval Air Systems
    Command; Commander, Naval Air Force; U.S. Atlantic Fleet; and Commander,
    Military Sealift Command. The Director, Office of Budget, Assistant Secretary of
    the Navy (Financial Management and Comptroller) issued the official Navy
    response to the draft report.

    Deleted Finding. As a result of management comments, we deleted the portion
    of draft finding A relating to deferred maintenance reporting on Ready Reserve
    Force Ships and the corresponding recommendation A.4.b.

    A.1. We recommend that the Commander, Naval Air Systems Command
    establish procedures to collect and report deferred maintenance on aircraft
    to include all maintenance that was not performed when it should have been
    or maintenance that was scheduled and then delayed until a future period.
                                         8
Management Comments. The Director, Office of Budget, Assistant Secretary of
the Navy (Financial Management and Comptroller), hereafter referred to as the
Director, partially concurred. The Director stated that the Naval Air Systems
Command had established procedures to collect and report deferred maintenance
that was not performed when it should have been or maintenance that was
scheduled and then delayed until a future period. However, he stated that the
Navy would annotate in future deferred maintenance reports any changes in
scheduled maintenance due to operation requirements or funding constraints. He
agreed that the migration of the helicopters to the Integrated Maintenance
Concept did not progress as planned. However, he did not concur that the
Integrated Maintenance Concept requirements were removed from the budget, but
migrated to the Aircraft Service Period Adjustment/Standard Depot Level
Maintenance. He stated the F/A-18 aircraft awaiting repair were not in the
FY 2001 budget because the requirement was not fully identified when the
FY 2001 budget was developed.

Audit Response. The Director’s comments were partially responsive. We
request additional comments from the Director to clarify how the Naval Air
Systems Command will report changes in scheduled maintenance due to
operational requirements or funding constraints because the existing methodology
does not capture the information. Past deferred maintenance reports stated that
unexecutable deferred maintenance (defined as capacity or operating constraints,
or reasons other than funding constraints) information was neither collected nor
reported. We agree with the Director’s comment that the helicopter funds were
not removed from the overall depot maintenance budget and we revised the report
to clarify that the funds were used for other depot maintenance requirements. We
believe that the F/A 18 maintenance requirements existed in FY 2001 and should
have been reported even though they were not in the FY 2001 budget.

A.2. We recommend that the Commander, Naval Air Forces, U.S. Atlantic
Fleet establish a process to collect and report all deferred maintenance on
aircraft carriers to include all maintenance that was not performed when it
should have been or maintenance that was scheduled and then delayed until
a future period.

Management Comments. The Director concurred. However, he stated that the
Navy was properly using the FASAB definition for reporting deferred
maintenance. The Director stated that the Navy did not report items that were
identified in FY 2001 and were either intended or scheduled to be accomplished
at a future date. In addition, the Director did not concur with the $78.5 million of
underreported maintenance on aircraft carriers. He indicated that the maintenance
availabilities were not scheduled in the budget for three of the aircraft carriers. In
the case of the fourth aircraft carrier, all the requirements that should have been
performed had, in fact, been completed. Additionally, the Director did not agree
with the audit determination that the Navy overstated deferred maintenance
amounts by $17.7 million related to the USS Harry Truman. The Director stated
that the September 2001 maintenance availability was not fully funded for the
USS Harry Truman. As a result, the unfunded amount was reported as deferred
maintenance in FY 2001. The Director stated that additional depot work on the
USS Harry Truman that could not be performed in FY 2002 was reported in the
FY 2002 deferred maintenance report.
                                      9
Audit Response. We disagree that the Navy is properly using the federal
accounting definition for reporting deferred maintenance. We agree that items
identified in FY 2001 that were either intended or scheduled to be accomplished
at a future date should not be reported as deferred maintenance. However, in our
report, we neither questioned that practice nor recommended that the Navy report
in the financial statements any amount associated with those items.

We believe that the Navy process of reporting only the deferred maintenance
requirements originally scheduled for the current fiscal year is inadequate because
it does not allow for the reporting of past years deferred requirements when that
maintenance was not scheduled to be completed in the current year. We disagree
with the Director’s comments regarding the USS John F. Kennedy, USS
Enterprise, and USS Theodore Roosevelt because all the carriers had valid
maintenance requirements deferred from previous availability work packages due
to lack of funding. We disagree with the Director’s statement that all work was
completed on the USS George Washington. Navy maintenance officials and
records indicate that there was $16.2 million of deferred maintenance for the USS
George Washington as of September 30, 2001. A maintenance availability was
completed on the USS George Washington in August 2001, however, the work
package indicated that 53 items were deferred because funds were not available.
Therefore, the maintenance requirements meet the FASAB definition of deferred
maintenance. The USS Harry Truman should not have reported deferred
maintenance for FY 2001. FASAB states that maintenance that was scheduled to
be performed and delayed or put off until a future period should be reported.
Because the time period had not passed for the maintenance to be accomplished
for the USS Harry Truman, the Navy should not have reported any deferred
maintenance for this ship. We request that the Director reconsider his comments
and provide additional comments.

A.3. We recommend that the Assistant Secretary of the Navy (Financial
Management and Comptroller) require the major commands to prepare and
submit a reconciliation between the Op-30 President’s Budget exhibit and the
deferred maintenance amounts.

Management Comments. The Director concurred and stated that budget
guidance will be modified to require each Budget Submitting Office to explain
any difference between amounts reported in the financial statements and amounts
reported for the Op-30 President’s Budget exhibit.

A.4. We recommend that the Commander, Military Sealift Command
establish the necessary management controls to measure, estimate, and
report deferred maintenance on Military Sealift Ships.

Management Comments. The Director concurred and stated that the Military
Sealift Command now reports deferred maintenance on Military Sealift ships.

Audit Response. We considered the comments from the Director to be partially
responsive. The response did not indicate whether the Military Sealift Command
has established the management controls to measure and estimate the deferred
maintenance. We believe that Military Sealift Command needs to develop a

                                    10
process to determine deferred maintenance for Military Sealift Command ships in
accordance with FASAB requirements.We request that the Director provide
additional comments addressing the recommendation that Military Sealift
Command establish management controls to measure and estimate the deferred
maintenance.




                                   11
           B. Presentation of Deferred Maintenance
              Information
           The Navy’s presentation of deferred maintenance information was
           inadequate. This condition existed because the Navy did not adequately
           comply with financial statement reporting requirements. Specifically, the
           Navy did not fully and adequately disclose changes in aircraft
           maintenance support plans and the method of measuring deferred
           maintenance for ships. Unless improvements are made to present
           complete information, the reader’s ability to make informed management
           decisions on the condition of Navy national defense PP&E will be
           impaired.

Deferred Maintenance Criteria and Policy
    FASAB Presentation Criteria. The FASAB recognizes that each entity is
    unique and allows management flexibility in reporting deferred maintenance
    amounts. Therefore, to ensure that readers understand the deferred maintenance
    amounts that are reported, SFFAS No. 6 requires management to present
    supplemental narrative information along with the deferred maintenance amounts.
    Examples of required information include each major asset class, the method of
    measuring deferred maintenance, the definition of acceptable condition, and asset
    condition.

    DoD Policy. DoD provides deferred maintenance reporting policy in the FMR,
    DoD Regulation 7000.14, volume 4, “Accounting Policy and Procedures,”
    chapter 6, “Property, Plant and Equipment,” August 2000 and volume 6B, “Form
    and Content of the DoD Audited Financial Statements,” chapter 12, “Required
    Supplementary Information,” November 2001.

    Navy Guidance. The ASN (FM&C) office issued guidance (discussed in
    finding A) to the major claimants for the preparation of the FY 2001 deferred
    maintenance submissions. The guidance implemented the FMR policy on
    deferred maintenance for the FY 2001 financial statements. The ASN (FM&C)
    office had not issued new guidance for the preparation of the FY 2002 financial
    statements.

Compliance with FASAB Reporting Requirements
    The Navy procedures for presenting deferred maintenance on national defense
    PP&E needed improvement to comply with FASAB requirements. FASAB
    requires that narrative information in the RSI section of the financial statements
    be clear enough so that the reader can understand the condition of the PP&E in
    relation to necessary maintenance. However, the Navy RSI information did not
    provide enough information to present the condition of its national defense PP&E.



                                        12
Specifically, the Navy presentation of deferred maintenance information did not:

   •   disclose the change in aircraft maintenance support plans or

   •   disclose the method of measuring deferred maintenance for ships.

Additional deferred maintenance information in these categories would have
improved the presentation of deferred maintenance by making the information
more understandable and meaningful for users and interested readers.

Disclose Change in Aircraft Maintenance Support Plans. The Navy needs to
improve the RSI narrative to include a discussion of the change in aircraft
maintenance support plans as required by FASAB. In addition, the Navy should
disclose changes in the depot support programs for retiring aircraft.
        Change in Aircraft Support Plans. The Navy did not disclose, as
required by FASAB, that they were in the process of transitioning from one
airframe depot maintenance support plan to another maintenance support plan.
The existing plan, the ASPA/SDLM, specified that as long as the individual
aircraft passed depot inspections, it remained in the fleet. Under the
ASPA/SDLM approach, aircraft could remain in the inventory for several years or
more before returning to the depot for complete overhaul. The new plan, IMC,
involved segmenting the depot rework into phases that are performed at certain
fixed intervals.

The Navy recognized that the condition of Navy aircraft was deteriorating due in
part to the aging of the aircraft inventory and the extended periods between depot
overhaul. The objective of the IMC plan is to improve the overall aircraft
condition while reducing operating and support costs. The change in maintenance
philosophy should have been disclosed in the RSI narrative as required by
FASAB. In addition, the new plan may have a significant impact on future Navy
aviation maintenance budgets, aircraft condition, and readiness rates.

        Change in Support Plans on Aircraft Being Phased Out. The Navy is
reducing the extent of depot maintenance for retiring aircraft in anticipation of
receiving new aircraft in future years. The aircraft narrative was inadequate
because it did not disclose that either the ASPA/SDLM or the IMC programs do
not support retiring aircraft. For example, the Navy plans to replace the CH-46D
with the H-60 Seahawk helicopter. Consequently, the Navy no longer overhauls
CH-46D Sea Knight helicopters because of the planned phase out. The CH-46Ds
receive safety of flight inspections and have depot-level repairs performed in the
fleet. In addition, the Navy plans to gradually phase out the F-14 Tomcat fighter
aircraft as early as FY 2006 and replace it with the F/A-18 E/F Super Hornet
aircraft. During the phase out period, the Navy planned to perform airworthiness
inspections on older F-14s and reduce the number of F-14s being overhauled.
During the phase out period, the F-14s that cannot be economically repaired will
likely be stricken from the inventory. The F-14 depot overhauls normally costs
approximately $3 million per aircraft.

The F-14 phase out plan is contingent on the funding for new F/A-18 E/F aircraft.
However, the Navy budget documents disclosed that requirements are not being
                                    13
    funded to meet the Navy’s goals for replacing retiring aircraft. The Navy goal is
    to replace 180-210 aircraft per year, but only 90 aircraft were funded for FY 2002.
    The Navy should disclose the maintenance plans for retiring aircraft and the
    possibility that additional depot maintenance funds may be needed to extend the
    life of the aircraft in the event that the Navy does not receive adequate funding for
    replacement aircraft.

    Disclose Method of Measuring Deferred Maintenance for Ships. FASAB
    defines two acceptable methods of measuring deferred maintenance in
    SFFAS No. 6: the cost assessment survey method and the life-cycle costing
    method. Cost assessment surveys are periodic inspections to determine the
    current condition of the ships and the estimated cost to correct any deficiencies.
    The life-cycle costing method considers operating, maintenance, and other costs
    in addition to the acquisition cost of the assets. These forecasted maintenance
    expenses serve as a basis to compare actual maintenance expense and estimate
    deferred maintenance. FASAB allows entities to use additional methods similar
    to the two defined.

    The Navy’s explanation provided in the RSI narrative statement did not
    adequately describe the method of measuring deferred maintenance for ships.
    Each of the Atlantic and Pacific Type Commanders (Air Forces, Surface Forces,
    and Submarines Forces) estimates deferred maintenance using a unique
    methodology. The RSI narrative stated that ship deferred maintenance includes
    maintenance actions that were deferred from actual depot maintenance work
    packages as well as maintenance that was deferred prior to inclusion in a work
    package because of either fiscal, operational, or capacity constraints. However,
    this was not the basis used by one of the two type commands we reviewed.
    Surface Ships, U.S. Atlantic Fleet (SURFLANT) uses the current ship
    maintenance program to detail all outstanding maintenance requirements.
    SURFLANT did not base deferred maintenance for their ships on deferred work
    packages. At a minimum, the Navy needs to disclose the methods of measuring
    deferred maintenance used by the different type commands for ships.

    The Navy also needed to disclose the amounts reported within the ships major
    asset class. Specifically, the Navy needed to disclose the amount of deferred
    maintenance related to the fleet ships, the MSC ships, and the Ready Reserve
    Force ships.

Understanding Navy Deferred Maintenance Information
    The intent of SFFAS No. 6 is to require entities to provide the reader of the
    financial statements meaningful information on the condition of the PP&E and
    provide estimates of the costs to correct any deficiencies. This information may
    be useful to DoD managers, the Congress, and other interested parties. When
    significant portions of the required information are omitted, the usefulness of the
    data is reduced. This information, in conjunction with other types of maintenance
    and readiness indicators, is helpful in understanding where maintenance funds
    would be most effective, the differences in budget and financial reporting
    requirements, and the condition of national defense PP&E in relation to a defined
    level of acceptable operating condition.
                                         14
Recommendation, Management Comments, and Audit
  Response
    B. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller) include a narrative in the deferred
    maintenance amounts in the financial statement that describes the method of
    measuring deferred maintenance, the requirements or standards for
    acceptable condition, and the condition of assets, expressed as a narrative or
    as descriptive statistics, as required by generally accepted accounting
    practices.

    Management Comments. The Director, Office of Budget, Assistant Secretary of
    the Navy (Financial Management and Comptroller) nonconcurred and stated that
    the maintenance cycles for the myriad weapons systems are intricate and managed
    by the appropriate community using very different approaches. The Navy stated
    that they continue to try to standardize methodologies across organizations, but
    that the intricacies of numerous complicated processes are best described in
    separate documents referenced elsewhere. In addition, the Navy stated that the
    data and the narratives in the financial report are not collected and provided in
    accordance with generally accepted accounting practices. Furthermore, the data
    have been collected for years as part of the budgeting process stopgap measure.
    The application of accounting principles to data that are not a part of the
    accounting system is not appropriate. The Navy stated that they are not
    attempting to make the data to be of accounting quality.

    Audit Response. The Director, Office of Budget, Assistant Secretary of the
    Navy (Financial Management and Comptroller) comments were nonresponsive.
    We agree with the Navy’s statement that the data and narratives are not collected
    and provided in accordance with generally accepted accounting practices.
    However, the Navy is required to report financial information in accordance with
    federal accounting standards. We believe that describing the method of
    measuring deferred maintenance and defining acceptable condition for national
    defense property, plant, and equipment is necessary to clarify how deferred
    maintenance on assets is being measured and improves the usefulness,
    understandability, and acceptance of Navy deferred maintenance information.
    We request that the Assistant Secretary of the Navy (Financial Management and
    Comptroller) provide additional comments.




                                        15
Appendix A. Scope and Methodology
   The Navy reported a deferred maintenance amount of $1.3 billion in the RSI
   section of the General Fund Financial Statements at the end of FY 2001. We
   obtained the Op-30, “Depot Maintenance Program Summary,” budget exhibits
   that are the required basis for the deferred maintenance information presented in
   the financial statements. We also obtained the U.S. Atlantic Fleet deferred ship
   depot maintenance annual reports. The amounts in these reports form the basis of
   the Op-30 data. We visited or contacted MSC Headquarters, NAVAIR
   Headquarters, three NAVAIR Depots, AIRLANT, and SURFLANT type
   commands to obtain depot-level supporting documentation for outstanding
   deferred maintenance amounts. We reviewed the compilation procedures for two
   of the six Fleet type commands, AIRLANT and SURFLANT.

   The methodology SURFLANT used to compile and report deferred maintenance
   appears to produce reasonably complete and accurate deferred maintenance
   estimates. We did not identify any material misstatements in the deferred ship
   depot maintenance annual report for SURLANT. The deferred maintenance
   reported by SURFLANT and AIRLANT represents 81 percent, or $730 million,
   of the total $904 million deferred maintenance reported for the ships’ major asset
   class in FY 2001. We did not review the compilation procedures for the
   remaining four type commands. See Table 3 for a breakout of Navy deferred
   maintenance FY 2001 amounts reported by major asset class.

                  Table 3. Navy Deferred Maintenance Amounts

                                          Amount           Percent of Total
           Major Asset Class           (in Millions)      Amount Reported
        Aircraft                       $ 176.9                  13.5
        Ships                              903.8                69.2
        Missiles                            34.8                  2.7
        Combat Vehicles                        .8                <0.1
        Other Weapon Systems               190.0                 14.5
           Total                        $1,306.3                100.0


   FASAB and DOD FMR provide the reporting requirements for deferred
   maintenance. We reviewed the compilation and presentation of deferred
   maintenance for compliance with FASAB and DoD policy.

   We performed this audit from July 2001 though October 2002 in accordance with
   generally accepted government auditing standards.




                                       16
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

    Use of Computer-Processed Data. We used summary requirements, budget, and
    financial system computer data that supported the DoD Planning, Programming,
    and Budgeting System. We also used computer-processed data from the Current
    Ships Maintenance Program for our review of AIRLANT and SURFLANT. We
    relied on the computer-processed data without performing tests of the system’s
    general and application controls to confirm the reliability of the data. We did not
    establish the reliability of the data because it would have required audit resources
    that were not available. We did not find errors that would preclude the use of the
    computer processed data to meet the audit objectives or that would change the
    conclusions in this report.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    Navy management’s self-evaluation of the process to compile and present
    deferred maintenance information in the Required Supplementary Information
    section of the General Fund financial statements.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Navy, as defined in DoD Instruction 5010.40. Navy
    management controls were not adequate to ensure that all material amounts of
    deferred maintenance information were consistently and accurately compiled or
    presented in accordance with DoD policy and FASAB standards.
    Recommendations A.1., A.2., A.3., A.4., and B., if implemented, will correct the
    weaknesses. A copy of the report will be provided to the senior official within the
    Navy responsible for management controls.

    Adequacy of Management’s Self Evaluation. Management’s self-evaluation
    was not adequate. The ASN (FM&C) did not identify preparation of a deferred
    maintenance estimate as a separate assessable unit. As a result, the ASN (FM&C)
    did not identify the material management control weaknesses.




                                        17
Prior Coverage
      During the last 5 years, the General Accounting Office (GAO), the Inspector
      General of the Department of Defense (IG DoD), the Naval Audit Service (NAS),
      and the Logistic Management Institute (LMI) have all issued reports related to the
      reporting of deferred maintenance. Unrestricted GAO reports can be accessed at
      http://www.gao.gov/. Unrestricted IG DoD reports can be accessed at
      http://www.dodig.osd.mil/audit/reports. Unrestricted Naval Audit Service reports
      can be accessed at http://hq.navy.mil/NavalAudit/ Unrestricted Logistics
      Management Institute reports can be accessed on the Internet at
      http://lmi.org/reports.html and may be ordered by emailing library@lmi.org.


GAO
      GAO Report No. GAO/AIMD 98-42, “Deferred Maintenance Reporting,
      Challenges to Implementation,” January 30, 1998


IG DoD
      IG DoD Report No. D-2003-054, “Financial Reporting of Deferred Maintenance
      Information on Army Weapons Systems for FY 2002,” February 3, 2003

      IG DoD Report No. D-2003-030, “Financial Reporting of Deferred Maintenance
      Information on Air Force Weapons Systems for FY 2002,” November 27, 2002


NAS
      NAS Report No. N2002-0035, “Fiscal Year 2000 National Defense Property,
      Plant, and Equipment Deferred Maintenance,” March 13, 2002


LMI
      LMI Report No. LMI, LG007T1, “Enhancements to Deferred Maintenance
      Reporting for National Defense Property, Plant, and Equipment,” June 2001

      LMI Report No. LMI, LG709T1, “Disclosure of Deferred Maintenance on
      National Defense Property, Plant, and Equipment,” November 1998




                                          18
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Naval Postgraduate School

Other Defense Organizations
Defense Systems Management College
National Security Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform



                                          19
Department of the Navy Comments




                   21
22
     Final Report
       Reference




     Deleted




23
24
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
Stuart D. Dunnett
Ted R. Paulson
John R. Williams
James C. Darrough
Karen M. Bennett
Ann Thompson
